No. 19-7
IN THE

Supreme Court of the United States
SEILA LAW, LLC,
PETITIONER,
v.
CONSUMER FINANCIAL PROTECTION
BUREAU,
RESPONDENT.
On Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit

BRIEF OF AMICUS CURIAE
ALAN B. MORRISON IN SUPPORT OF
NEITHER PARTY

December 13, 2019

ALAN B. MORRISON
COUNSEL OF RECORD
GEORGE WASHINGTON
UNIVERSITY LAW SCHOOL
2000 H STREET NW
Washington, DC 20052
(202) 994-7120
abmorrison@law.gwu.edu

i
Table of Contents
INTEREST OF THE AMICUS .............................. 1
INTRODUCTION AND SUMMARY OF
ARGUMENT…………………………………….…….2
ARGUMENT .......................................................... 7
I. PETITIONER DOES NOT HAVE
STANDING TO CHALLENGE THE
LIMITS ON REMOVAL OF THE CFPB
DIRECTOR……………………….……………7
II. THERE IS NO ACTUAL
CONTROVERSY BETWEEN THE
PARTIES, AND THEREFORE THERE IS
NO ARTICLE III JURISDICTION.………16
CONCLUSION ..................................................... 29

ii
Table of Authorities
Cases
Allen v. Wright, 468 U.S. 737 (1984) ............. 10, 14
Bond v. United States, 564 U.S. 211 (2011) ........ 15
Bowsher v. Synar, 478 U.S. 714 (1986) ................. 1
Chicago & G. T. Railroad Co. v. Wellman,
143 U. S. 339 (1892) ........................................ 22
Clapper v. Amnesty International, USA, 568 U.S.
398 (2013) ................................................... 11, 14
Clinton v. City of New York, 524 U.S. 417 (1998)14
Dickerson v. United States, 530 U.S. 428 (2000) 28
Elk Grove Unified School Dist. v. Newdow, 542
U.S. 1 (2004) ..................................................... 13
Free Enterprise Fund v. Public Company
Accounting Oversight Bd., 561 U.S. 477 (2010) 8
Hollingsworth v. Perry, 570 U.S. 693 (2013)...........
7,18-20
Humphrey’s Executor v. United States, 295 U.S.
602 (1935) ............................................... 6, 14, 28
INS v. Chadha, 462 U.S. 919 (1983) 1, 6, 13, 19, 26
Kremens v. Bartley, 431 U.S. 119 (1977) ............. 20
Lewis v. Casey, 518 U.S. 343 (1996) ...................... 9
Lucia v. Securities & Exchange Commission, 138
S. Ct. 2044 (2018) ............................................. 25
Metropolitan Washington Airports Authority v.
Citizens for Abatement of Aircraft Noise, Inc.,
501 U.S. 252 (1991) ............................................ 6
Miranda v. Arizona, 384 U.S. 436 (1966) ........... 28
Mistretta v. United States, 488 U.S. 361 (1989) ... 1

iii
Morrison v. Olson, 487 U.S. 654 (1988) .......... 8, 29
Muskrat v. United States, 219 U.S. 346 (1911)4, 22
Myers v. United States, 272 U.S. 52 (1926)6, 14, 27
Obergefell v. Hodges, 135 S. Ct. 2584 (2015) ...... 22
Raines v. Byrd, 521 U.S. 811 (1997)1, 12-14, 24, 27
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016) .... 10
United States v. Windsor, 570 U.S. 744 (2013) .......
16-20, 26
Warth v. Seldin, 422 U.S. 490 (1975) ............. 10, 14
Constitutional Provisions
Appointments Clause, Art. II, § 2, cl. 2 ................. 9
Article III .......................................................passim
Impeachment Clause, Art. II, § 4 .......................... 6
Presentment Clause, Art. I, § 7 ........................... 12
Take Care Clause, Art. II, § 3.................... 6, 15, 25
Statutes & Rules
18 U.S.C. § 3501 ................................................... 27
Defense of Marriage Act ...................................... 17
Line Item Veto Act ............................................... 12
Public Law 115–174, 132 Stat. 1297 (2018)........ 24
Tenure of Office Act ............................................. 13
Federal Rule of Civil Procedure 55(d) ................. 18

iv
Other Authorities
Brief of Amicus Curiae Citizens for Responsibility
and Ethics in Washington, in United States v.
Windsor, 2013 WL 573933 .................................. 27
Brief of Respondent Supporting Petitioner in Lucia
v. SEC, 2018 WL 1251862 .................................. 24
Presidential Residual Authority to Decline to
Execute Unconstitutional Statutes, 18 Op. Off.
Legal Counsel 199 (1994) ................................... 25

1
INTEREST OF THE AMICUS 1
Alan B. Morrison is an associate dean at the
George Washington University Law School where
he teaches constitutional law and civil procedure.
He has extensive litigation experience in the field
of separation of powers, which is the subject of this
case. He was lead counsel in INS v. Chadha, 462
U.S. 919 (1983); Bowsher v. Synar, 478 U.S. 714
(1986), Mistretta v. United States, 488 U.S. 361
(1989) and Raines v. Byrd, 521 U.S. 811 (1997). He
has no financial or other interest in the outcome of
this case, which challenges the limits on the
President’s authority to remove the Director of the
respondent Consumer Financial Protection Bureau
except for cause. Amicus supports those limits.
There are, however, serious jurisdictional
issues, explained below, that preclude the Court
from reaching the merits of this case. Amicus is
filing this brief because neither the parties, nor the
amicus United States House of Representatives,
nor the Court-appointed amicus on the merits is
likely to discuss these issues. This Court granted
the motion of amicus to file a shorter version of this
brief at the certiorari stage.

No person other than Brian Wolfman of Georgetown Law
Center, who made suggestions on prior drafts, and amicus
have authored this brief in whole or in part or made a
monetary contribution toward its preparation or submission.
The parties have filed blanket consents to the filing of amicus
briefs on the merits.

1

2
INTRODUCTION AND SUMMARY OF
ARGUMENT
At the outset it is essential to determine the
precise legal claim before the Court that petitioner
has asserted and with which respondent agrees.
The question presented by the petition is stated
broadly:
Whether the vesting of substantial executive
authority in the Consumer Financial
Protection Bureau, an independent agency
led by a single director, violates separation
of powers. Pet at i.
The petition describes various features of the
agency, including the actions that it is authorized
to take, the term of the Director, and the method
by which it is funded. However, the body of the
petition and petitioner’s brief on the merits make
it clear that the sole constitutional question that it
is asking this Court to resolve is whether the limit
on the President’s power to remove the Director,
except for cause, is constitutional.
There is no doubt that the Director was
properly appointed by the President with the
advice and consent of the Senate and that the
Constitution permits appointments of even
principal officers to be for terms of years. And
despite the unusual source of the agency’s funding,
no party has cited a case that found that feature to
be unconstitutional. Moreover, in his briefs on
behalf of respondent supporting certiorari and on
the merits, the Solicitor General did not suggest

3
that there is any other constitutional defect beyond
the for-cause removal provision, which is the entire
focus of his restated question presented. To be sure,
both petitioner and respondent argue that other
factors in the statute support their position that
the limits on removal are invalid, but that is
different from arguing that they form independent
bases for a finding of unconstitutionality, let alone
that these other questions are presented in this
case.
But even as limited, the question of whether
the Constitution requires that all principal officers,
and perhaps all officers of the United States, be
removable by the President for any reason, for no
reason, or for a reason that Congress or even the
Constitution may conclude is inappropriate, is
enormously significant to the operation of the
federal government. Although this case involves
the Consumer Financial Protection Bureau
(“CFPB”) which has a number of unique features,
the briefs of petitioner and the Solicitor General do
not ask this Court to differentiate this agency from
the many other federal agencies, such as the
Federal Election Commission, the Federal
Communications Commission, the National Labor
Relations Board, and the Securities and Exchange
Commission,
which
also
make
policy
determinations pursuant to federal law, and whose
officers can only be removed for cause. Indeed, the
Solicitor General has argued that the President’s
right to remove without cause extends to inferior
officers whose sole function is to adjudicate cases.
See infra at 24 (arguing that ALJs are removable
without cause).

4
Despite the importance of the question
presented, there are very significant jurisdictional
hurdles under Article III that preclude the Court
from reaching the merits. The President has never
attempted to fire the Director of the CFPB, and the
petitioner is a private law firm, whose shareholder
is not subject to any form of removal from federal
office. Its objection is that a federal officer who has
demanded certain information from the petitioner
cannot be removed by the President which
allegedly interferes with the President’s duty in
Article II, Section 3 to “take Care that the Laws be
faithfully executed.”
The first jurisdictional problem is that no
private party has standing to assert any rights that
the President may have. Nor is there any showing
that the inability of the President to remove the
Director injured petitioner in a way in which it has
a right to object. Allowing any person who is
affected by any order of any federal agency, in
which the head of the agency, its members, or the
various administrative judges who support its
mission, can only be removed for cause, to
challenge that order on the grounds asserted here
would open the floodgates to a tide of constitutional
lawsuits against almost every federal agency.
There is another set of reasons why this
Court should decline to decide the merits of this
lawsuit. Article III requires that there be adverse
parties, and this Court’s appointment of an amicus
to defend the statute cannot fill that void. This is
now precisely the kind of “friendly suit” that this
Court required to be dismissed in Muskrat v.
United States, 219 U.S. 346, 359-60 (1911), and for

5
which dismissal is even more appropriate here
because of the potential impact of the decision on
the operation of many federal agencies. Indeed,
dismissal is singularly appropriate here because,
as explained below, the current President had
almost ten months in which he could have removed
the Director appointed by the previous President,
but chose not to do so. Nor did he ask Congress to
amend the removal portion of the CFPB statute
when his political party controlled both Houses of
Congress and when it amended other significant
portions of the law that created the CFPB. The
President simply chose not to seek to change the
provisions on the removal of the Director,
preferring instead to ask this Court to strike the
offending restriction.
As noted above, if the theory of petitioner
and the Solicitor General is accepted, that would
have vast consequences for the scores of federal
agencies that have both principal and inferior
officers with for-cause removal protections.
Congress has relied on the constitutionality of
these provisions since at least 1935 in assigning
duties and responsibilities to numerous federal
agencies, in an effort to balance the interests in
fairness to all parties and the ability of the
President to carry out his policies. Moreover,
although the Solicitor General seeks to portray forcause protections as if they exclusively harm the
President, they also provide offsetting benefits
because the next President cannot immediately
sweep prior appointees from office.
This is not a case where Congress has
flaunted an express provision in the Constitution

6
because nowhere in the Appointments or Take
Care Clauses, or anywhere else, except in the
Impeachment Clause in Article II, § 4, is removal
ever mentioned, let alone accompanied by a phrase
such as “at will.” Furthermore, the case on which
the theory of at-will removal by the President is
based, Myers v. United States, 272 U.S. 52 (1926),
did not involve a statute with a for-cause
limitation, but one in which the President had to
obtain the permission of the Senate to remove the
officer. That kind of clear congressional
aggrandizement is not present here, but was
present in cases such as INS v. Chadha, 462 U.S.
919 (1983); Bowsher v. Synar, 478 U.S. 714 (1986);
and Metropolitan Washington Airports Authority v.
Citizens for Abatement of Aircraft Noise, Inc., 501
U.S. 252 (1991).
If there was ever a case that called for
judicial restraint, this is it. Although purporting to
be about the President’s removal powers, no one –
let alone this petitioner – has been removed from
office. There is no actual case or controversy
between adverse parties, and no need to decide any
question, let alone one with such momentous
consequences as the one posed by the parties. If the
President truly believes that this law, or the many
others applicable to other federal officers, offends
his powers under the Constitution – and he is
prepared to take the political heat for doing so – he
can remove any of the thousands of officers who
have for-cause removal protections and do what
President Roosevelt did in Humphrey’s Executor v.
United States, 295 U.S. 602 (1935), and defend his

7
decision in court, with a real adversary on the other
side.
ARGUMENT
THE CASE SHOULD BE DISMISSED
FOR LACK OF JURISDICTION.
The principal bases for dismissal – that
petitioner lacks standing and that the parties are
no longer adverse because they agree on the merits
of the constitutional claim – are interrelated
because standing is part of the Article III
requirement of a case or controversy. Both of these
jurisdictional issues were previewed in a brief filed
by amicus at the certiorari stage, but, for whatever
reasons, both petitioner and respondent have
chosen not to address them in their merits briefs.
Because petitioner’s lack of standing to challenge
the CFPB removal limits would have been a basis
for dismissal even if the parties were not in
agreement on the merits, this brief will address
that issue first.
I. PETITIONER DOES NOT HAVE
STANDING TO CHALLENGE
THE LIMITS ON REMOVAL OF THE CFPB
DIRECTOR.
It is a fundamental tenet of Article III that a
party must have standing to raise the legal
challenge at issue. In most cases the relevant party
is the plaintiff, but this Court has made it clear
that defendants must also meet the requirements

8
of standing, most recently in Hollingsworth v.
Perry, 570 U.S. 693 (2013). There this Court held
that the proponents of a state initiative had no
legally protected interest in the defense of their
initiative. As a result, they lacked standing to
appeal an adverse ruling in a challenge to its
constitutionality, even though they had intervened
to support the law in the district court and that
court had ruled against them on the merits.
Petitioner here was the defendant in a
proceeding brought by respondent to enforce a civil
investigative demand. In this context the question
is whether petitioner had standing to raise the
limits on the removal of the Director of the CFPB
as an independent basis for non-compliance, just as
if petitioner had filed a pre-enforcement suit
against respondent seeking that same relief.
Amicus recognizes that this standing
argument was not raised in the lower courts.
However, because lack of standing is jurisdictional,
it can and must be raised by the Court at any time.
One reason why standing may not have been raised
below is that courts, including this Court, have
decided removal issues even when there has been
no actual removal and even though the President
did not claim that a limit on removal had actually
prevented him from discharging the officer whose
actions were at issue. See Bowsher v. Synar, 478
U.S. 714 (1986); Morrison v. Olson, 487 U.S. 654
(1988), and Free Enterprise Fund v. Public

9
Company Accounting Oversight Bd., 561 U.S. 477
(2010).
However, in each of those cases, there was a
challenge to the basic authority of the individual or
entity to act, and in each case, the Court considered
whether the method of removal bore on the basic
authorization claim. There is no doubt that a
person challenging an action taken by a federal
official has the right to challenge the appointment
of that officer under the Appointments Clause,
because the protections of that Clause are for the
benefit of everyone subjected to an action by a
federal officer. By contrast here, although the
removal restriction may arguably cause injury to
the President by limiting his ability “to take care
that the Laws be faithfully executed,” that
limitation has no impact on petitioner or other
private parties.
Moreover, a plaintiff’s standing to raise one
claim does not create standing to raise even related
claims. Thus, in Lewis v. Casey, 518 U.S. 343
(1996), inmates filed a class action raising a variety
of challenges to the lack of access to services that
would enable them to exercise their right to litigate
about prison conditions or their confinement.
Based in part on a finding that only two inmates
had shown specific injuries to themselves, this
Court cited lack of standing in rejecting the broad
class relief granted by the district court, which was
designed to remedy a number of other prison
conditions that the trial court concluded impeded
access to the courts. Id. at 354-57. Thus, Lewis

10
confirms that a plaintiff who may have standing to
challenge an Appointments Clause violation does
not have standing to sue to invalidate a removal
restriction.
In any event, now that amicus has raised a
standing issue, the Court must address it. And it
is important for the Court to reject petitioner’s
standing here. Otherwise, a similar removal claim
will be added by every person challenging a
decision of every agency with members or even
ALJs or other inferior officers who have similar
protections.
The test for meeting the requirement of
standing was set forth in Warth v. Seldin, 422 U.S.
490, 498 (1975): “In essence the question of
standing is whether the litigant is entitled to have
the court decide the merits of the dispute or of
particular issues. This inquiry involves both
constitutional
limitations
on
federal-court
jurisdiction and prudential limitations on its
exercise.” See also Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1548 (2016) (emphasizing that the injury
must be “concrete’ and “particularized” and
constitute “an invasion of a legally protected
interest” of the person raising the claim).
In Allen v. Wright, 468 U.S. 737, 751 (1984),
the Court described what it called “judicially-selfimposed limits on the exercise of federal
jurisdiction” including “that a plaintiff's complaint
fall within the zone of interests protected by the
law invoked.” The Court went on to describe what

11
it called “a core component derived directly from
the Constitution. A plaintiff must allege personal
injury fairly traceable to the defendant's allegedly
unlawful conduct and likely to be redressed by the
requested relief.” Id. Petitioner cannot meet this
standard principally because the President’s
asserted inability to remove the Director has no
connection to whether the demand made by the
CFPB was lawful.
A major obstacle to petitioner’s standing is
that nowhere does it describe any injury that it
suffered as a result of the fact that the Director who
issued the order was not subject to removal at will
by the President. Petitioner does not contend that,
had the Director been subject to removal at will,
the demand for information made to it would not
have been made or enforced, and any such claim
would be pure speculation that would not suffice to
give petitioner standing. See Clapper v. Amnesty
International, USA, 568 U.S. 398, 401, 409-14
(2013).
The lack of injury is also apparent when the
claim is examined from the redressability
perspective. If this Court agreed with petitioner on
the merits, or if Congress passed a law making the
Director removable at will, petitioner would still be
subject to the same investigative demand. That is
because it has suffered no injury from the removal
limitations, and hence its elimination would not
satisfy petitioner’s objection to the CFPB’s demand
for information. And for essentially the same
reasons, it also fails to satisfy the traceability

12
requirement. The real standing problem is that
there is no connection between any injury that
petitioner or any other similar plaintiff would
suffer and the removal or non-removal of the
Director by the President.
In many respects, the claim of standing here
is even weaker than that rejected in Raines v. Byrd,
521 U.S. 811 (1997). The claim on the merits there
was that the powers conferred on the President by
the Line Item Veto Act violated Article I, § 7 and
other provisions of the Constitution by giving him
the power to make laws, which can only be done by
Congress. As part of that Act, Congress created an
express right of individual Members of Congress to
challenge the constitutionality of the Act, based on
the recognition that Members would lose power to
the President as a result of his ability to use the
veto to alter agreed-upon legislation. This Court
nonetheless concluded that the statute did not
meet the requirements of Article III insofar as it
gave individual Members the right to sue over the
Line Item Veto Act when they could show no injury
personal to themselves.
In reaching that conclusion, the Court made
several observations applicable to this case. First,
the Court noted that it has “always insisted on
strict compliance with this jurisdictional standing
requirement.” Id. at 819. It further observed that
the “standing inquiry has been especially rigorous
when reaching the merits of the dispute would
force us to decide whether an action taken by one of
the other two branches of the Federal Government

13
was unconstitutional,” and that the Court “must
put aside the natural urge to proceed directly to the
merits of this important dispute and to ‘settle’ it for
the sake of convenience and efficiency.” Id. at 81920. Accord Elk Grove Unified School Dist. v.
Newdow, 542 U.S. 1, 17 (2004) (lack of prudential
standing found in face of strong dissent that
reached merits and rejected
controversial
Establishment Clause claim).
One further concern that Raines expressed
about upholding the congressional standing
statute there was that the rationale might extend
to allowing the President to ask the courts for
rulings on the limits on his powers under laws such
as the Tenure of Office Act, which required Senate
approval in order for the President to remove
certain executive branch officers. 421 U.S. at 82627. Indeed, now that the President has agreed with
petitioner that it may raise this constitutional
challenge, this lawsuit has become the equivalent
of a declaratory judgment action brought by the
President asking this Court to rule that the
removal
restrictions
are
unconstitutional.
Therefore, for this reason as well, the relief sought
here is inconsistent with this aspect of Raines.
Raines does not hold that one or both Houses
of Congress lack standing in all situations to
defend laws that grant them powers beyond those
in the legislative process. For example, in INS v.
Chadha, 462 U.S. 919 (1983), the Executive Branch
declined to defend a statute granting either House
of Congress a veto over certain decisions by the INS
regarding the deportability of aliens, and both

14
Houses intervened to support the law. In that
situation, the intervenors had standing to protect
their distinct statutorily-granted interest in
exercising the veto, which was particularized to
them, and was therefore different from any general
interest that they may have had in defending laws
that Congress had enacted. And because both
Houses had standing to defend their vetoes, there
was no case or controversy problem of the kind
discussed in Point II infra.
This Court has never shied away from a
standing ruling on the ground that, if this plaintiff
lacks standing, then no one will be able to make the
constitutional challenge. See e.g. Clapper and
Warth, supra. But, like Raines, there is a direct
path by which this removal claim can be litigated,
and it is solely within the power of the President –
the person who would benefit from a ruling striking
down this or other removal limitations – to set up
a case in which there would be no question of
standing or any other barrier to reaching the
merits. The President could simply fire the current
Director, or any one of the many other officers who
have statutory removal protections. And if that
person sued, as did the plaintiffs in Myers and
Humphrey’s Executor, supra, there would be a
proper Article III case in which the President or the
United States as defendant would have standing to
assert that the statutory limitations on removal
were unconstitutional. That is what happened in
the wake of Raines, when the President exercised
his line-item veto, and parties injured by it brought
suit and were vindicated by this Court in Clinton v.
City of New York, 524 U.S. 417 (1998).

15
The Court need not reach the prudential
zone-of-interest requirement noted in Allen, supra,
but if the Court does, it further supports the
conclusion that petitioner does not have standing
to raise the removal claim.
Zone of interest
inquiries focus on the law on which the claimant
relies. There is nothing in the Appointments
Clause that mentions removal, and the parties
base their claims on removal on the Take Care
Clause, which is specifically directed at the
President. Amicus does not argue that the
Constitution should be read narrowly to limit the
protections that it affords, but only that those who
rely on it must show that the law being challenged
“causes injury [to them] that is concrete,
particular, and redressable.” Bond v. United
States, 564 U.S. 211, 222 (2011) (upholding
standing of defendant in criminal case to challenge
on federalism grounds the power of Congress to
enact offense charged there).
Although amicus does not agree that the
Take Care Clause invalidates for-cause removal
provisions, if that Clause protects anyone, it is the
President and no one else. Indeed, if its protections
extended to cover petitioner, then any person who
objected to an agency action affecting them, would
have standing to object to that action on the ground
that
a
relevant
agency
official
was
unconstitutionally protected by a for-cause
removal provision. Furthermore, as noted above, if
the President truly wants a ruling on this issue,
and is prepared as prior Presidents were to take
the political heat for firing an officer who has
statutory removal protections, there is no barrier

16
to obtaining the adjudication that this President
seeks.
II. THERE IS NO ACTUAL CONTROVERSY
BETWEEN THE PARTIES, AND
THEREFORE THERE IS NO ARTICLE III
JURISDICTION.
Unlike the absence of standing to litigate the
removal claim, which existed from the moment
that petitioner raised that claim, the lack of an
actual case or controversy only arose when the
Solicitor General filed his response to the petition
in September 2019. But now that the parties agree
on the merits of the constitutional claim at issue,
the absence of adversity between the parties means
that there is no longer any Article III case or
controversy. Thus, while the constitutional issue is
of great legal and practical significance, it may
never have to be decided, or if it has to be decided,
it will be in a case in which the parties are truly
adverse to each other, without the need to appoint
an amicus to argue the other side. 2
Two recent cases illustrate the problem
caused by the lack of adversity here, with the Court
2 Cases involving statutory interpretation issues requiring
appointment of an amicus raise much less concern because
Congress can always fix a statute if it disagrees with a ruling
of this Court and because, for many statutes, it is more
important that there be a definitive answer to their meaning
than that the answer be the correct one. See Culbertson v.
Berryhill, 139 S. Ct. 517, 521 (2019) (amicus appointed to
defend judgment below favoring agency, which no longer
supported that judgment, where review was necessary to
resolve a conflict in the circuits).

17
in one, United States v. Windsor, 570 U.S. 744
(2013), narrowly agreeing to reach the merits,
while a 5-4 majority in the other, Hollingsworth v.
Perry, 570 U.S. 693 (2013), reaching the opposite
conclusion. Both were constitutional challenges to
laws that treated same-sex couples less favorably
than opposite sex couples. In both, the named
defendants had chosen not to defend the laws at
issue, in both cases before there had been any
determinations on the merits. The law in Windsor
was the Defense of Marriage Act (“DOMA”), whose
unfavorable treatment for same-sex married
couples extended to more than 1000 federal
statutes. Because those statutes also affected the
legislative and judicial branches (mainly because of
the impact of DOMA on some of their employees),
even the President’s unilateral refusal to enforce
the law would have left it in place in the other two
branches.
In Windsor the plaintiff sought a tax refund
of $363,053, which the Government declined to give
her without a final order from this Court. The
House intervened in the district court and fully
defended the law including in this Court. The court
of appeals did not raise any jurisdictional objection,
nor did any party, but this Court sua sponte
appointed an amicus to argue that the Court lacked
jurisdiction because the plaintiff and the United
States agreed on the merits, even though there was
no question as to the adversity between the House
and the existing parties.
The legal basis on which the majority found
the requisite case or controversy is not entirely

18
clear, but it surely was based in large part on
practical considerations. The majority assumed
that, if this Court and the court of appeals lacked
jurisdiction, plaintiff’s judgment that she was
entitled to her tax refund would still be upheld.
Windsor, 570 U.S. at 755. Even the dissent did not
suggest that the district court judgment had to be
vacated. Id. at 791 (finding that this Court and the
court of appeals “had no power to decide this suit,”
with the only result being that appeal be dismissed,
leaving the district court judgment in place).
However, if the position argued by the
amicus there were taken to its logical conclusion,
at least the portion of the district court’s ruling that
declared DOMA unconstitutional would have to be
stricken, in which case plaintiff might have
prevailed on the basis of a default judgment. But
see Federal Rule of Civil Procedure 55(d): “A
default judgment may be entered against the
United States, its officers, or its agencies only if the
claimant establishes a claim or right to relief by
evidence that satisfies the court.” One way or the
other, it would have been perverse beyond all
reason if the plaintiff had lost her claim against the
Government because the Government agreed that
she was entitled to the relief that she sought, but
refused to give it to her.
The majority in Windsor also relied heavily
on the near chaos that would ensue if the Court
refused to decide the constitutionality of DOMA in
that case. Thus, if the position of the amicus had
been sustained, there would be no way for an
appeal to be taken from a ruling adverse to DOMA,

19
if any court could even go that far. Meanwhile,
federal agencies would be compelled to follow
DOMA, with no means in sight to resolve its
constitutionality. And because DOMA affected over
1000 statutes, covering all three branches of
Government, the situation would shortly become
intolerable.
At the very least, to the extent that Article
III
has flexibility
based on prudential
considerations, such as the practical consequences
of granting or denying judicial review, as the
majority concluded it did, id. at 762, Windsor cried
out for an immediate judicial resolution of the
constitutional question. Moreover, if the courtappointed amicus had been correct, there would be
no way any plaintiff could litigate the
constitutionality of DOMA unless a new President
in 2017 decided to defend its constitutionality.
Justice Alito concurred with the majority on
the jurisdictional issue (but not on the merits) on
the ground that intervention by the House to
defend DOMA starting in the district court
satisfied Article III. 570 U.S. at 803. He based his
opinion in part on his reading of Chadha, although,
as shown above, the congressional intervenors had
standing there. His position commanded no other
votes in Windsor and only three others in
Hollingsworth. And for good reason, as Justice
Rehnquist observed in Kremens v. Bartley, 431 U.S.
119, 134 n. 15 (1977):
The availability of thoroughly prepared
attorneys to argue both sides of a

20
constitutional question, and of numerous
amici curiae ready to assist in the decisional
process, even though all of them ‘stand like
greyhounds in the slips, straining upon the
start,’ does not dispense with the
requirement that there be a live dispute
between ‘live’ parties before we decide such
a question.
Most significant for this case, no one with standing
has sought to intervene in this or any other Court,
and so that Justice Alito’s rationale, even if correct,
cannot save this case from the lack of
adversariness required by Article III.
By contrast here, this removal provision
could have been tested in court, if President Trump
had been willing to fire the previous Director in the
ten months that he served after the President was
sworn in. 3 And he can still obtain a legitimate test
today. Even if the President does not want to
remove the current Director (or she would not
resist), there are many other officers of the United
States at other agencies who have for-cause
removal protection that the President could fire if
he wanted to test the limits on removal. For that
reason, unlike Windsor, this is not a situation in
which there may never be a test of these provisions
.
Hollingsworth is in many respects closer to
this case than Windsor. At issue there was a ballot
https://www.washingtonpost.com/news/business/wp/2017/11
/15/richard-cordray-is-stepping-down-as-head-of-consumerfinancial-protection-bureau.
3

21
measure (Prop 8) that barred California from
approving same-sex marriages. When two samesex couples brought a non-class action
constitutional challenge to Prop 8, the Governor
and the state Attorney General declined to defend
the law, and so the group that had sponsored the
ballot initiative intervened and fully litigated the
case in the district court and the court of appeals
where the plaintiffs prevailed. This Court,
however, declined to reach the merits of the
challenge, instead dismissing the petition for lack
of standing, although the same result based on the
absence of adversity would also have been
appropriate. That ruling had the effect of leaving
in place the order of the district court invalidating
Prop 8, at least as applied to these plaintiffs. The
proponents of Prop 8 declined to continue the battle
in California, but they and their allies supported
other states that defended similar bans on samesex marriages, but which this Court struck down in
Obergefell v. Hodges, 135 S. Ct. 2584 (2015).
Muskrat v. United States, 219 U.S. 346
(1911), also provides important wisdom on the
application of the adversity aspect of the case or
controversy requirement. At issue there was the
impact of two conflicting federal statutes on the
rights of two different groups of Native Americans.
A statute designed to provide a means to resolve
this dispute directed one group to sue the United
States and asked the courts to decide whether
latter-enacted statutes could constitutionally
deprive that group of their rights under an earlier
law.

22
As part of its discussion, the Court quoted
from Chicago & G. T. Railroad Co. v. Wellman, 143
U. S. 339, 345 (1892), in words that resonate here
about the dangers of constitutional litigation when
both sides agree.
‘Whenever . . . there is presented a question
involving the validity of any act of any
legislature . . . and the decision necessarily
rests on the competency of the legislature to
so enact, [a constitutional ruling] is
legitimate only in the last resort, and as a
necessity in the determination of real,
earnest, and vital controversy between
individuals. It never was the thought that,
by means of a friendly suit, a party beaten in
the legislature could transfer to the courts
an inquiry as to the constitutionality of the
legislative act.’ Quoted at 219 U.S. at 359-60.
The Muskrat Court also refused to reach the
merits, observing that deciding whether a law of
Congress is unconstitutional is “the most
important and delicate duty of this court,” and is
given to it “because the rights of the litigants in
justiciable controversies require the court to choose
between the fundamental law and a law purporting
to be enacted within constitutional authority, but
in fact beyond the power delegated to the
legislative branch of the government.” Id. at 361.
The Court then refused to decide the constitutional
issue presented there because the United States
“has no interest adverse to the claimants” and the
“whole purpose of the law [authorizing the
litigation] is to determine the constitutional

23
validity of this class of legislation, in a suit not
arising between parties concerning a property right
necessarily involved in the decision in question, but
in a proceeding against the government in its
sovereign capacity, and concerning which the only
judgment required is to settle the doubtful
character of the legislation in question.” Id. at 362.
The lessons from Muskrat apply fully here.
The federal courts do not sit to advise parties on
constitutional questions, but to decide actual
disputes between them, in part because to decide
those questions is “the most important and delicate
duty of this court.” That consideration is of special
significance here given the importance and breadth
of the ruling that the existing parties seek from this
Court. Muskrat did not foreclose litigation over the
statutes at issue there, but the Court insisted that
the parties be real adversaries. So too here: the
claim that the limits on removal are
unconstitutional can be readily tested by this
President by removing someone who holds a
position protected by those limits and who is
willing to sue to reclaim his or her job.
Indeed, the President had such an
opportunity for the ten months that the prior CFPB
Director held that office after January 20, 2017, but
the President declined to pursue that path. Thus,
unlike with DOMA, in which dismissal of Windsor
might have precluded any court from ever
reviewing the constitutional ruling, there is no
chance that the courts will be unable to review
these removal limits, if a President chooses to

24
remove the Director (or any other similarly
protected officer) without asserting good cause.
Moreover, President Trump and his party
controlled both Houses of Congress for two full
years, during which they had the virtually
unchecked ability to revise the CFPB’s removal
provision to eliminate these restrictions. Thus,
Congress, with the agreement of the President,
amended the part of the statute creating the
CFPB, 4 but they chose not to address this issue,
preferring instead to ask this Court to decide the
constitutional question. Accordingly, this Court
should not come to the rescue of one branch of
Government when that branch has the ability to
remedy any perceived injuries without invoking
the power of the Court. Cf., Raines, 521 U.S. at 529
(noting ability of Congress to repeal provisions at
issue as alternative to suing to invalidate them).
In fact, this is the second time that this
Solicitor General has asked this Court to decide
this constitutional question without actually
removing the officers in question. In Lucia v.
Securities & Exchange Commission, 138 S. Ct.
2044 (2018), the question on which this Court
granted review was whether the administrative
law judges at the SEC (“ALJs”) were inferior
officers or employees. In his merits brief, the
Solicitor General also asked the Court to decide
that the limits on firing those ALJs, which are
similar to those that apply to the Director, were
unconstitutional.
See Brief of Respondent
4

Title II, Public Law 115–174, 132 Stat. 1297 (2018).

25
Supporting Petitioner in Lucia v. SEC, 2018 WL
1251862 at 39-55. But see Brief for Respondent
Supporting Vacatur (“Br”). at 40 (suggesting that
inferior officers may not be required to be
removable at will).
In addition, respondent’s brief in Lucia also
suggested a means to avoid deciding the
constitutional question. It proposed “Narrowly
Constru[ing] ‘Good Cause’ Restrictions On
Removing ALJs” in order “to permit the removal of
an ALJ “for misconduct or failure to follow lawful
agency directives or to perform his duties
adequately.” Id. at 39. That suggestion, which
respondent has not pressed here (Br. at 43),
provides another way to avoid the constitutional
question. Moreover, if that approach has any
viability, it should be examined in the context of a
specific removal action, including the basis for
doing so, not in a friendly lawsuit devoid of all facts
and adversity.
At the very least, these alternatives, which
were absent in Windsor and Hollingsworth,
present further compelling reasons why the Court
should decline to address the constitutional issue
presented in the petition.
***
One final word is in order that relates to the
lack of adversity in this case. The Take Care
Clause of the Constitution applies to “the Laws,”
which does not mean only the laws that the

26
President or his attorneys like, but all the laws that
Congress has enacted, with very limited
exceptions. See Presidential Residual Authority to
Decline to Execute Unconstitutional Statutes, 18
Op. Off. Legal Counsel 199 (1994).
The main justification for a President’s
refusal to defend a federal law is that the law
impedes the ability of the President or those acting
on his behalf from carrying out their statutory or
constitutional duties. Thus, in Chadha, a statute
gave to either House of Congress the right to veto
the decision assigned by law to the INS to allow an
otherwise deportable alien to remain in this
country. In doing so, the veto directly affected the
ability of officials working for the President to carry
out the applicable law. The fact that similar
legislative veto provisions had been included in
over 200 laws over a period of 40 years provided
further justification for the President to side with
the alien after ensuring that the House and Senate
would intervene to defend the law.
By contrast, the Obama Administration in
Windsor refused to defend DOMA although the law
did not even arguably interfere with any power of
the President. In addition, the Equal Protection
claim of the plaintiff was by no means compelled by
prior law, and the argument put forth by the
Solicitor General – that heightened scrutiny was
required for discrimination against same-sex
couples – had never been adopted by any court. As
a result of choosing not to take care that DOMA be

27
faithfully executed, the House of Representatives
was required to intervene to support the law, and
this Court had to appoint an amicus to argue that
the Court lacked jurisdiction because of the lack of
adversity among the parties. 570 U.S. at 755. 5
Dickerson v. United States, 530 U.S. 428
(2000), is an example of a closer case for not
defending a federal statute. The law challenged
there, 18 U.S.C. § 3501, was enacted to lessen the
restrictions on admissibility of evidence obtained
from suspects while in custody, established by
Miranda v. Arizona, 384 U.S. 436 (1966). The
Department of Justice declined to defend the law
on the ground that Miranda directly controlled the
outcome, while still maintaining that the
underlying prosecution of the defendant would
continue. An amicus was appointed to defend the
statute, which the lower court had upheld, but the
majority struck it down, over the dissent of Justices
Scalia and Thomas, id. at 444, which suggests that
the constitutional question was not open and shut.
Nor is this a case in which Congress has
flaunted a prior ruling of this Court (as arguably it
did in Dickerson). The principal case on which the
Solicitor General relies, Myers v. United States, 272
U.S. 52 (1926), did not involve a for-cause
limitation, but was described by Chief Justice
Rehnquist in Raines, as one in which “this Court
5 Amicus’s disagreement with the Obama Administration is
not over the merits in Windsor: he filed an amicus brief
supporting the plaintiff in Windsor on behalf of Citizens for
Responsibility and Ethics in Washington. See 2013 WL
573933 (2013).

28
held that Congress could not require senatorial
consent to the removal of a Postmaster who had
been appointed by the President with the consent
of the Senate.” 521 U.S. at 827. On the other side,
there is direct precedent in Humphrey’s Executor
and Morrison v. Olson, 487 U.S. 654 (1988),
upholding for-cause limits on removal. Although
respondent seeks to distinguish those cases, it also
asks this Court to overrule them, if necessary. Br.
at 8, 44. Under these circumstances, it seems
singularly inappropriate for the Solicitor General
to refuse to defend a statute without also taking the
political consequences from removing an officer
subject to an allegedly unconstitutional restriction.
As a result, he is, in effect, seeking an advisory
opinion from this Court that the removal
restrictions applicable to the Director are
unconstitutional.
It is not the role of amicus or this Court to
spell out in detail precisely when and under what
circumstances the President and his Attorney
General may properly decline to defend a law duly
enacted by Congress. But it would be appropriate
for this Court to remind the President that his
basic duty is to take care that all of the laws be
faithfully executed and defended in court, and that
exceptions to that principle should be a last resort.
It is particularly ironic in this case that the
President’s refusal to defend this law is justified on
the broad theory that his inability to remove the
Director of the CFPB except for cause interferes
with his ability to take care that the laws, which
Congress has entrusted to the Director, not the
President, be faithfully executed. And he has done

29
so in a case in which he has not attempted to fire a
Director who has sued to regain his position.
Whatever the standards may be for declining to
defend a federal statute, the refusal here does not
meet them and has caused the Court to deal with
serious jurisdictional problems that arise when all
parties agree that the challenged law is
unconstitutional.
CONCLUSION
For all of these reasons, the Court should
dismiss the petition and the underlying case for
want of jurisdiction, or, alternatively, it should
dismiss the petition as improvidently granted.
Respectfully submitted,
Alan B. Morrison
Counsel of Record
George Washington
University Law School
2000 H Street NW
Washington D.C. 20052
202 994 7120
abmorrison@law.gwu.edu
December 13, 2019

